<html>
<title> - U.S.-MEXICO SECURITY COOPERATION: AN OVERVIEW OF THE MERIDA INITIATIVE 2008-PRESENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  U.S.-MEXICO SECURITY COOPERATION: AN

                   OVERVIEW OF THE MERIDA INITIATIVE
                              2008-PRESENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2013

                               __________

                           Serial No. 113-30

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
81-170                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William R. Brownfield, Assistant Secretary, Bureau 
  for International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................     6
Mr. John D. Feeley, Principal Deputy Assistant Secretary, Bureau 
  of Western Hemisphere Affairs, U.S. Department of State........    15
Ms. Elizabeth Hogan, Senior Deputy Assistant Administrator, 
  Bureau for Latin America and the Caribbean, U.S. Agency for 
  International Development......................................    24
Ms. Clare R. Seelke, Specialist in Latin American Affairs, 
  Congressional Research Service.................................    44
Mr. Steven Dudley, director, InSight Crime.......................    54
Francisco E. Gonzalez, Ph.D., Riordan Roett senior associate 
  professor, Latin American Studies, John Hopkins University 
  School of Advanced International Studies.......................    75

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable William R. Brownfield: Prepared statement..........     8
Mr. John D. Feeley: Prepared statement...........................    17
Ms. Elizabeth Hogan: Prepared statement..........................    26
Ms. Clare R. Seelke: Prepared statement..........................    46
Mr. Steven Dudley: Prepared statement............................    56
Francisco E. Gonzalez, Ph.D.: Prepared statement.................    77

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89


                  U.S.-MEXICO SECURITY COOPERATION: AN

                   OVERVIEW OF THE MERIDA INITIATIVE


                              2008-PRESENT

                              ----------                              


                         THURSDAY, MAY 23, 2013

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2212 Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. This committee is now called to order.
    Good morning and welcome to the first of a two-part series 
on security cooperation with Mexico and Central America under 
the framework known as the Merida Initiative.
    As you all know, violence at the hands of drug cartels 
along our southern border continues to affect our own security, 
as well as cross-border commerce. Our communities are 
threatened by organized criminals who traffic drugs, money, 
weapons, and human beings across our border just as they 
continue to threaten security and governance in Mexico and the 
rest of the region.
    Mexico is our third largest trading partner and we are 
Mexico's largest trading partner. By the way, Mexico is 
Arizona's, my home state, number one trading partner. So it is 
clearly in both countries' national interest that we cooperate 
to defeat these destabilizing and ruthless drug cartels.
    Since the 2007 signing of the Merida Initiative, Mexico and 
the United States have been doing just that; working together 
to disrupt and dismantle the drug cartels, working to improve 
Mexican and regional justice systems, and to strengthen our 
shared border to include air and maritime control. As we 
approach the fifth anniversary of the Merida Initiative, I 
wanted to take this opportunity to take an honest look at our 
efforts in cooperation with Mexico, evaluate the effectiveness 
of the full range of counter narcotics efforts, and determine 
how we move forward to improve and make better use of our 
taxpayer money.
    With the PRI back in power in Mexico, under recently-
elected President Enrique Pena Nieto, there will be some 
changes to our cooperation with Mexico, so I have asked our 
distinguished panel of government witnesses to provide us with 
details about what these changes are likely to be and how they 
will affect our efforts. I would like to know whether our law 
enforcement and intelligence agencies will be able to 
effectively combat drug trafficking organizations under what I 
understand to be a move toward centralized control under the 
Mexican interior ministry; and to what extent will this 
centralization possibly derail the productive working 
relationships formed over the last 5 years between our men and 
women in the field and their Mexican counterparts.
    The second panel of private-sector experts will give this 
subcommittee their unvarnished view of the Merida Initiative 
over the last 5 years. And we hope to learn their views on the 
effect of the changes under the new Mexican administration will 
have in achieving its original goals of the Merida Initiative.
    I look forward to looking closely at Pillar III of the 
current framework, building a 21st century border, and hearing 
their experts' views on how we can improve border security so 
we can protect our citizens without hampering our vibrant trade 
relationship with Mexico.
    As chairman of the subcommittee on the Western Hemisphere, 
I have chosen to focus on opportunities for economic growth and 
energy independence throughout our region and these 
opportunities around the United States and Mexico. 
Unfortunately, the scourge of transnational drug trafficking 
organizations will disrupt these opportunities if the United 
States and Mexico do not cooperate to take down the cartels and 
enforce our laws. So I am doing all I can to make security 
cooperation between the U.S. and Mexico as on solid footing as 
it can possibly be with our shared commitments.
    I also want to thank Secretary Brownfield of the State 
Department's Bureau of International Narcotics and Law 
Enforcement Affairs; Mr. John Feeley, the Principal Deputy 
Assistant Secretary of State for Bureau of Western Hemisphere 
Affairs; and Ms. Elizabeth Hogan, the Senior Deputy 
Administrator for Latin America and USAID.
    I would also like to thank the witnesses who will testify 
in our second panel, Ms. Clare Seelke from the Congressional 
Research Service; Mr. Steven Dudley, the director of Insight 
Crime; and Dr. Francisco Gonzalez, a Latin American expert from 
Johns Hopkins. Thank you all for being with us today for what I 
know will be an informative and very productive hearing.
    I would like to recognize the ranking member for opening 
statement.
    Mr. Sires. Thank you, Mr. Chairman, good morning. Thank you 
to our witnesses who are here today.
    Today's discussion comes at a critical time for both the 
U.S. and Mexico. For the U.S., the concept that comes on the 
heels of President Obama's recent visit to Mexico and Central 
America earlier this month; a time when the threat or spillover 
violence by drug trafficking organizations in Mexico, along our 
southern-western border has escalated; and at a time when the 
U.S. Congress is reviewing its financial commitment in 
considering historic immigration reform, impacting over 11 
million people.
    For Mexico, it comes nearly 6 months after that historic 
return of the PRI.
    On December 1, 2012, PRI candidate, Enrique Pena Nieto, was 
inaugurated for a 6-year term, vowing to focus more on reducing 
violent crime in Mexico and combatting the drug trade. In 
particular, President Pena Nieto has aimed to refocus the 
nature of the U.S.-Mexico relationship to send on an economic 
and energy forum agenda by calling for a review of the current 
U.S.-Mexican security strategy. Thus far, Pena Nieto has moved 
to centralize security policy, an indication that he is far 
more skeptical of the nature of U.S. involvement in Mexico's 
security than previous President Calderon.
    Yet, President Pena Nieto moved to reform the structure of 
Mexico security structure by placing the Federal police and 
intelligence service under the authority of the Interior 
Secretary could be a significant setback in cooperation between 
an array of U.S. and Mexican Federal agencies.
    Similarly, efforts to centralize police commands and create 
a militarized police force to replace current military forces 
engaged in public security could undermine law enforcement 
cooperation. Nonetheless, maintaining strong cooperation 
between the U.S. and Mexico is paramount for both our nations' 
economies and national security. Our nations share common 
democratic values and similar desires of peace and economic 
prosperity, as well as a common border extending nearly 2000 
miles.
    Additionally, the U.S. is Mexico's largest trading partner 
and largest foreign investor. Mexico, the fourteenth largest 
economy in the world is the third largest U.S. trading partner 
after Canada and China. Combined annual trade between our two 
nations is $460 billion. In this regard and as part of the 
Merida Initiative, both countries have accepted a shared 
responsibility. The U.S. Congress has appropriated more than 
$1.9 billion for Fiscal Year 2012, twice the Merida Initiative. 
For its part, Mexico has invested nearly $10 U.S. for every $1 
committed by the U.S. As of September 2012, Mexico had invested 
over $10 billion toward the Merida program.
    Mexico, however, remains a major producer and supplier of 
illegal narcotics to the U.S. including heroin, meth, 
marijuana, and cocaine. More than 60,000 deaths are a result of 
drug-related crimes and violence in Mexico between 2006 and 
2012. Although more possible than that, indications of progress 
have at times been mixed. For instance, we have helped to train 
more than 7,500 Federal and 19,000 state justice sector 
personnel, 4,000 of which are Federal investigators that did 
not exist before. Yet, those suspected of involvement in 
organized crime can be held by authorities for up to 80 days 
without access to legal counsel. Yet, many inmates await trials 
as opposed to serving out the sentences. Normally, the U.S. 
Agency of International Development has concentrated most of 
its work in support of judicial reform at the state level. In 
terms of human rights, there is concern the Mexican military 
has committed more human rights abuses since it has been tasked 
with carrying out public security. The U.S. must continue to 
work with Mexico to improve their institutions that investigate 
and prosecute human rights abuses and strengthen protection for 
human rights defenders.
    In conclusion, the landscape in Mexico has changed, 
politically, economically, and in terms of security. But the 
need to combat drug trafficking organizations and stem the 
violence from their activities remain a mutual concern. I look 
forward to hearing from our panelists and their assessment of 
our individual and joint effort in regards to the Merida 
Initiative thus far and how both our respective nations can 
improve our efforts moving forward. Thank you.
    Mr. Salmon. Thank you. I would like to also recognize the 
most distinguished Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Chairman. 
Thank you so much Mr. Ranking Member for holding this important 
hearing, one of the most critical partnerships that our nation 
enjoys, that with Mexico, our ally to the south.
    In a speech in 1984, President Ronald Reagan said,

        ``Closer to home, there remains a struggle for survival 
        for free Latin American, allies of ours. They valiantly 
        struggle to prevent communist takeovers, fueled 
        massively by the Soviet Union and Cuba. Our policy is 
        simple. We are not going to betray our friends, reward 
        the enemies of freedom or permit fear and retreat to 
        become American policies, especially in this 
        hemisphere.''

    And still many years later, we are still looking for a 
coherent strategy on how to advance U.S. interests in the 
region, how to promote democracy, how to better hold 
accountable those regimes that oppress their own people. And 
that is why I would like to thank my friend from New Jersey, 
Albio Sires, for joining me and introducing our bipartisan 
legislation H.R. 1687, Countering ALBA Act of 2013 which urges 
the President to sanction those persons who are officials or 
acting on behalf of ALBA governments who are responsible for or 
complicit in the commission of serious human rights abuses 
against citizens of ALBA countries. And I hope that we can move 
that bill forward. Thank you, Mr. Chairman, for this hearing.
    Mr. Salmon. Thank you. I would like to recognize the 
gentleman from New York, Mr. Meeks.
    Mr. Meeks. Thank you, Chairman Salmon, and of course, 
Ranking Member Sires, for convening this hearing today to 
discuss the current status of the Merida Initiative. I look 
forward to hearing from our distinguished witnesses here today, 
all of whom are very involved and very knowledgeable on the 
subject of the Merida Initiative and all of Latin America.
    I believe the Merida Initiative is an essential policy tool 
to facilitate cooperation between the United States and our 
southern neighbor, Mexico. The Merida Initiative allows the 
United States and Mexico to maximize our respective resources 
by coming together with the common goal to fight trans-border 
crime, organized crime and corruption. Building a capacity for 
rule of law, and providing technical assistance and law 
enforcement training are important aspects of this agreement.
    I was pleased to see the Initiative grow from a bilateral 
security agreement with Mexico into a key component of a 
broader regional security strategy. U.S.-Mexico relations do 
not exist in a vacuum. It is vital that this agreement 
continues to complement a broad U.S. regional engagement plan. 
Addressing the security concerns of Mexico does not stop at 
simple bilateral relations. The United States must address the 
region as a whole. The Caribbean Base Security Initiative, the 
Central America Regional Security Initiative, and the Colombia 
Strategic Development Initiative, along with the Merida 
Initiative, contribute to a comprehensive regional approach 
that accounts for sophisticated criminal networks and complex 
cross-border threats throughout the hemisphere.
    I look forward to hearing particularly from my good friend, 
Ambassador Brownfield, who could possibly speak about the 
importance of regional partnerships, particularly when 
discussing the work of Colombia as a regional partner for many 
countries including Mexico and Guatemala.
    Through my recent travels to the region, I heard first hand 
the impact of U.S. assistance in a variety of sectors. Aspects 
of U.S. security and assistance agreements that address the 
needs of vulnerable populations such as women, indigenous 
people, and Afro-Colombians are particularly important. These 
populations are routinely exploited by criminal networks and 
armed conflicts. They are all too often the unheard victims of 
a lack of rule of law and the menace to civil society. By 
building a U.S. engagement strategy that accounts for the 
integration of ethnic minorities and disenfranchised persons, 
the United States can work with partner nations to lay the 
foundation for a safe and secure region.
    I look forward to hearing again from our witnesses on how 
we can further advance the needs of vulnerable populations 
through these critical partnerships. The people of Mexico, the 
people of the Caribbean, the people of Central and South 
America can benefit greatly from continued U.S. support and 
assistance that is based on a broad, regional vision for shared 
security prosperity and between the United States and our 
southern neighbors. Thank you. I look forward to hearing the 
testimony.
    Mr. Salmon. Thank you. The Chair now recognizes the 
gentlemen from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do also want 
to thank you and our ranking member for convening this 
important hearing and I certainly want to extend my warm 
welcome to our witnesses this morning.
    Mr. Chairman, it goes without saying that the U.S. does 
have a significant interest in the security of our neighbor to 
the south. Statistics have shown that when Mexico is safe, our 
own communities in the U.S. are also safe. I applaud the 
efforts of the current administration's supporting Mexico's 
endeavors to reduce its elevated rate of crime, violence, and 
drug trafficking.
    I also want to note, in fact, and want to associate myself 
with the comments made earlier by my good friend and colleague 
from New York and I associate myself particularly in the 
interests that we have taken to find out what Mexico has done 
in its treatment of the indigenous populations there in Mexico. 
I saw this as one of the ironies, Mr. Chairman, that we--the 
celebration of the Cinco de Maya recently, one of the things 
that maybe a lot of our fellow Americans are not aware of. A 
gentleman by the name of Benito Juarez was a pure Indian, 
indigenous Indian, was often raised by monks and came through 
the ranks of becoming eventually the Lincoln and George 
Washington of Mexico, in fact, when they tried to get rid of 
French colonialism at the time. And that is the reason why the 
Cinco de Mayo is in reference to the leadership and the 
services of this indigenous Indian by the name of Benito Juarez 
who is revered and honored throughout Mexico.
    My question is have the indigenous peoples in Mexico been 
provided proper treatment by the central government for all 
these years? And I definitely will be asking more questions 
concerning this matter.
    And with that, Mr. Chairman, I yield back. Thank you.
    Mr. Salmon. Thank you. Now I would like to turn to our 
witnesses. First, I would like to welcome Ambassador 
Brownfield. It is a wonderful opportunity to have you again. I 
am very looking forward to what you have to say, thank you.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
     SECRETARY, BUREAU FOR INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Brownfield. Thank you, Mr. Chairman. Normally, I 
would defer to my regional colleague to speak first and give us 
some basic orientation, but Mr. Feeley looks so fierce this 
morning I will take advantage of this opportunity and then step 
out of the line of fire before he speaks.
    Chairman Salmon, Ranking Member Sires, members of the 
subcommittee, thank you very much for the opportunity to appear 
before you today to discuss U.S.-Mexico security cooperation 
under the Merida Initiative. I do have a written statement 
which I will, with your permission, enter into the record and 
provide this brief, oral summary.
    Members of the subcommittee, we do not start our discussion 
of Merida today at point zero, since our two governments agreed 
in 2007 that we share responsibility for the security threats 
affecting Mexico and will cooperate in solving them, the United 
States has delivered $1.2 billion in support and assistance to 
professionalize Mexico's law enforcement and build capacity 
under the rule of law. The Mexican Government for its part has 
invested more than $10 for every dollar contributed by the 
United States to these shared challenges. And we have had an 
impact. More than 8,500 justice sector officials and more than 
19,000 federal, state, and local police, have received training 
under Merida. Secure Federal prisons have increased from 5 to 
14, and their quality has increased even more. The U.S. 
Government has provided $111 million worth of inspection 
equipment that has resulted in more than $3 billion in elicit 
goods seized in Mexico.
    More than 50 senior members of drug trafficking 
organizations have been removed from the streets of Mexico and 
more than 700,000 Mexican students have received civic 
education and ethics training under the Merida Initiative.
    Mr. Chairman, this subcommittee should take great pride in 
its support for the Merida Initiative and what it has 
accomplished for the American and Mexican people.
    Ladies and gentlemen, a new President of Mexico was 
inaugurated last December. As with all new governments, the 
Pena Nieto government came to office, determined to formulate 
its own national security strategy and place its own stamp on 
the U.S.-Mexico bilateral relationship. The new government has 
sent some clear signals on the direction it wishes to go. It 
wants a single point of contact in the Mexican Government to 
coordinate Merida Initiative programs and operations, and 
greater focus on crime prevention and economic and social 
development. It wants greater engagement by Mexican state and 
local government and a sharper focus on human rights. It wants 
to strengthen the Mexican Attorney General's office, 
professionalize the police, and build a new gendarmerie to list 
some of the policing burden from the Federal police and armed 
forces.
    Mr. Chairman, I have no problem with these signals. They 
are logical. They are coherent. They are good ideas. There are 
a number of details yet to be defined, but what we have now is 
fully consistent with our strategic approach to the Merida 
Initiative where we support the four Pillars, shift focus from 
equipment to training, and transition from Federal to state and 
local institutions. As the President said in Mexico City 2 
weeks ago, it is the people of Mexico who decide how we will 
cooperate in Mexico.
    We have made an unprecedented and historic start to 
cooperation under the Merida Initiative during different 
administrations in both Mexico and the United States. I expect 
to report even more progress to this subcommittee in the months 
ahead.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Ambassador Brownfield follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Feeley.

  STATEMENT OF MR. JOHN D. FEELEY, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Feeley. Thank you very much, Chairman Salmon, Ranking 
Member Sires, members of the committee. I hope I don't look too 
ferocious this morning. Bill has a tendency to exaggerate.
    I also thank you for the opportunity to testify along with 
my colleagues on the U.S.-Mexico security relationship and the 
Merida Initiative. It has been my privilege to serve at our 
Embassy in Mexico on two occasions; first, in the days and 
months after 9/11 when we were forced to reexamine how 
neighbors must confront the horrors of terrorism in democratic 
societies. And most recently, as I welcome some of you to 
Mexico, in 2009 to 2012, as our Charge d'Affaires and our DCM, 
when our Mexican partners and we truly transformed our security 
in commercial relationships in service of the American and 
Mexican people.
    I must thank as well the U.S. Congress for its consistent 
bipartisan strong support of the U.S.-Mexico relationship, in 
general, and the Merida Initiative, in particular. Merida is a 
success story and this committee's commitment to and 
stewardship of this new paradigm and bilateral cooperation has 
been a cornerstone of that success. And I would just note that 
between 2007 when we began this and current day, there have 
been over 25 congressional delegations to Mexico. I look behind 
you and I see some of our staffer colleagues, Eddie Acevedo, 
Ramon Zertuche, Mark Walker, Joske Bautista. I also recall John 
Mackey in another era with whom we work closely. The 
cornerstone of our success has been our cooperation.
    Begun under the Bush-Calderon administrations and 
reaffirmed and now strengthened in the Obama and Pena Nieto 
administration, the United States and Mexico cooperate to 
vouchsafe our mutual security in ways that quite frankly were 
simply unimaginable when I reported for duty in Mexico the 
first time over a decade ago. This commitment to our shared 
security transcends political parties and it extends across 
both governments. It has enriched and broadened our 
relationship.
    As the Assistant Secretary mentioned, on May 2nd, President 
Obama traveled to Mexico to meet with President Pena Nieto. The 
Presidents reaffirmed their commitment to improving the lives 
of all citizens and working with mutual respect and 
responsibility across a broad range of issues. President Obama 
emphasized our co-responsibility for the violence associated 
with the elicit flows of drugs, guns, and cash.
    The Merida Initiative is based on the recognition that our 
countries share responsibility for combatting the transnational 
criminal networks and protecting our citizens from the crime, 
corruption, and violence they generate. The four Pillars that 
the United States and Mexico agreed to in 2010 and the 
Presidents Obama and Pena Nieto have reaffirmed, remain our 
flexible organizing construct. Under these Pillars, we are 
accelerating our efforts to support more capable institutions, 
especially police, justice systems, and civil society 
organizations, to expand our border focus beyond security, to 
facilitating legitimate trade and travel, to cooperate in 
building strong communities resistant to the influence of crime 
in Mexico.
    Our success is due in large part to the brave efforts of 
the Mexican Government and people to confront transnational 
criminal organizations. Our assistance has provided crucial 
support to the Mexican Government in its efforts to enhance the 
rule of law, promote human rights, and advance justice sector 
reforms while enhancing the bilateral cooperation between our 
two governments through the provision of equipment, technical 
assistance, and training.
    As the Assistant Secretary mentioned, President Pena Nieto 
and his team have consistently made clear to us their interest 
in continuing our close collaboration on security issues, most 
recently during the visit. The Pena Nieto government has stated 
that it intends to give particular emphasis to crime prevention 
and the rule of law. The United States fully supports this 
refinement and I stress refinement of our strategic partnership 
and we continue our on-going transition from major equipment 
purchases toward training and capacity building together.
    Mr. Chairman, working together we have truly transformed 
the bilateral agenda. Our efforts to address crime and violence 
and enhance citizen security will continue to evolve and will 
reflect the views and priorities of both governments. Mexican 
authorities agree that our cooperation must continue and that 
the Merida Initiative provides a flexible framework for this 
partnership.
    Mr. Chairman, thank you, and the members of this committee 
again for your support of the Merida Initiative. Your support 
has helped make this a catalyst for dramatically-improved 
relationship beyond just security. I look forward to continuing 
the work with this Congress. And I will be happy to answer your 
questions.
    [The prepared statement of Mr. Feeley follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you, Mr. Feeley.
    We have a couple of votes that we need to take, but I would 
like to have you, Ms. Hogan, make your statement first and then 
we will recess and then we will come back after the two votes 
and I apologize for inconveniencing you.

   STATEMENT OF MS. ELIZABETH HOGAN, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Hogan. Thank you very much. Chairman Salmon, Ranking 
Member Sires, and members of the subcommittee, thank you for 
the opportunity to appear before you today and I am grateful 
for the subcommittee's interest in USAID's contributions to the 
Merida Initiative. USAID considers insecurity related to high 
levels of crime and violence in Mexico to be a grave threat to 
the remarkable development advances of recent decades.
    Analysis in Latin American countries indicates that high 
levels of crime and violence are a leading constraint to 
economic growth because it discourages international investment 
and drains domestic resources. Since the inclusion of Pillar IV 
within the Merida Initiative in 2010 we have worked alongside 
our Mexican partners to prevent crime and violence in areas 
that have been most affected by narcotrafficking, with the 
particular focus on at-risk youth. We do so by helping to 
create safe, urban spaces for youth; provide them life and job 
skills; increase their access to educational opportunities; 
improve the ability of government to keep citizens safe; and 
strengthen the capacity of communities to address the root 
causes of crime and violence. Because communities along the 
U.S.-Mexico order are especially vulnerable to drug 
trafficking, we are developing and testing models to reduce 
crime and violence in nine communities in the cities of Ciudad 
Juarez, Monterrey, and Tijuana.
    As we identify successful approaches, the Government of 
Mexico is poised to bring them to scale in other parts of the 
country facing similar challenges. We are tapping into the 
expertise of countries and cities that has successfully 
addressed gang violence and reduced crime. For instance, 
through an agreement signed last year with Los Angeles, USAID 
is sharing that city's successful gang reduction and use 
development approaches with our partners in Mexico. We have 
also shared other U.S. experiences in crime prevention such as 
the Cease Fire models employed in Chicago and Boston.
    We are also partnering with the private sector to make our 
efforts more sustainable. For instance, we are working with 
Intel and Prudential in the cities of Monterrey and Tijuana to 
train at-risk youth from tough neighborhoods for productive 
employment in the technology and construction fields. Our 
effort to reach at-risk youth is already bearing fruit. In 
Ciudad Juarez, approximately 88 percent of the youth who took 
advantage of our program re-enrolled in middle school. In 
Tijuana, 70 percent of our enrollees are either back in school 
or employed 6 months after program completion. And the nine 
focus communities have all developed community master plans 
which will help them make the best use of local resources to 
reduce crime and violence.
    Because insecurity thrives in environments where corruption 
is rampant and impunity emboldens criminals, we are continuing 
our long-standing efforts through Merida to strengthen the 
institutions charged with ensuring the rule of law and the 
protection of human rights. We work closely with Mexican 
justice institutions as they transition from a closed, 
inquisitorial criminal justice system to a more open and 
transparent accusatorial one.
    A 2012 impact study conducted in five states implementing 
justice reforms indicated that they were already having the 
desired effect. States reported a marked decrease in pre-trial 
detentions and case backlog in large part due to an increased 
use of alternative dispute mechanisms. Victim assistance units 
have been strengthened and serious crimes are receiving longer 
sentences compared to states that have not yet implemented 
justice reforms.
    Mexico is scheduled to enact these reforms nationwide by 
2016 and we are poised to help them in that effort.
    Through Merida, we are also supporting the government's 
effort to prevent, protect, and advocate for human rights. In 
2012, we trained more than 150 journalists and human rights 
defenders on practices and technologies that can help protect 
them and their work. We are also supporting human rights 
training for Federal and state police offices in the 
government's new victim assistance unit. This includes 
supporting master's degrees for 300 police in human rights and 
developing training curricula that incorporate internationally-
recognized standards. In addition, we are partnering with local 
organizations on campaigns to prevent torture and support the 
implementation of human rights reforms.
    Mr. Chairman, the Government of Mexico has been a full 
partner in our shared endeavor to reduce crimes, support youth, 
strengthen the judicial sector and advance human rights. Our 
main interlocutors, including the Under Secretary for Human 
Rights and the Under Secretary for Crime and Violence 
Prevention and SETEC which is the government agency that 
overseas justice sector reform have all expressed their 
interest in not only continuing, but expanding our close 
working relationship.
    We look forward to continuing to partner with them as they 
press ahead with their ambitious reform agenda.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Hogan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you. This committee will be in recess 
until we commence our voting. Thank you.
    [Recess.]
    Mr. Salmon. The subcommittee on the Western Hemisphere is 
reconvened. I would like to thank the distinguished panel for 
their testimonies and the time that you have allocated to be 
with us here today.
    Ambassador Brownfield, as of March 13th, roughly $1.1 
billion of the $1.9 billion in the Merida funding appropriated 
between Fiscal Year 2008 and Fiscal Year 2012 have been 
delivered. I understand at least $95 million in 2012, Merida 
funding, remains on hold. And there appears to be between $600 
and $700 million in funds yet to be delivered. What is the 
current status of the Merida pipeline and should we be 
concerned that deliveries remain largely unchanged since fall 
of 2012? And are those funds being reprogrammed to align with 
the shift in priorities expressed by the Pena Nieto government? 
If so, what should we expect this reprogramming to look like?
    Finally, how will centralization of security cooperation 
under the Mexican Interior Ministry affect the on-the-ground 
efforts and relationships formed and the information and 
intelligence sharing that is necessary to get ahead of the 
cartels?
    Ambassador Brownfield. Thank you, Mr. Chairman. Excellent 
questions and let me try to knock off all of them in some sort 
of order. Our own calculation is that we have delivered on $1.2 
billion of Merida assistance funding and appropriations since 
Fiscal Year 2008. And since Congress has appropriated $1.9 
billion in INL money, simple math tells you how much therefore 
remains at this stage undelivered. That would include, of 
course, about $200 million of Fiscal Year 2013 which has not 
yet come to us at all due to the process. So my own figure is I 
am looking at about $500 million that is in play right now.
    You correctly point to an issue, not the only issue and 
that is that we are still working through the directions of the 
priorities of the vision of the new Government of Mexico and 
Enrique Pena Nieto. I signalled for you, as did John, some of 
the areas that they have identified as priorities. We are 
comfortable with those areas. We don't yet have a defined 
strategy that we can say we can program and implement against. 
We are continuing to work programs that we have had in place 
for the past several years. You correctly note that a chunk of 
this money, $95 million, is currently on hold due to the other 
House here in the United States Congress and we are working to 
resolve those issues together with the Government of Mexico.
    Finally, you mentioned one specific issue that we are also 
working through and that is the desire of the Government of 
Mexico to have what they call the single window or the single 
point of contact for coordination of Merida Initiative material 
through the Government Ministry, the Government Secretariat, 
Secretaria de Gobernacion. We are working through those issues. 
I have no objection to the concept, in principle, nor does 
anyone. It is very logical to have a single point of contact, a 
go-to person for decisions, but how to implement that on a 
multi-hundred million dollar program that involves dozens of 
different agencies and thousands of different people is what we 
are still working through. We owe you great clarity on that. We 
are working it with the Government of Mexico. I would hope by 
the time you call us here again for another hearing, we would 
have a definitive answer.
    Mr. Salmon. Wonderful. Thank you. I would like to point out 
that for every dollar that we spend, it is my understanding 
Mexico spends $10. It is a pretty good bang for the buck. And 
that probably leads to the next loaded question. I know how 
important this funding is, but I would like to ask this 
question and any member of the panel can address it. Given the 
current U.S. budget constraints, the status of the Merida 
Initiative funding pipeline and the fact that Mexico is a 
middle-income country, is continued aid to Mexico through 
Merida justifiable? And if you had to pare down, what areas 
would you argue for maintaining and why? And I apologize, my 
time has kind of run out, so if there is anything you want to 
supplement in writing afterwards that is great, too. But I 
would love a short response on that.
    Mr. Feeley. Mr. Chairman, I will go ahead and start. The 
funding for the Merida Initiative, as you note, has indeed been 
on a downward slope. The reason for that very simply is that 
when we began this we began with some big ticket items that 
Mexico desperately needed to improve their mobility to get non-
intrusive inspection equipment to its ports, to get IT 
platforms, et cetera.
    As we have provided that leveraged assistance, Mexico, as 
you mentioned, has spent its own money. And that is right and 
that is just and that is the way it should be. Where we have 
begun to evolve, even before President Pena Nieto and his team 
came in is a greater focus on training, on capacity building. 
This is the added value that we have by providing FBI agents, 
DEA agents, our Justice sector people.
    I will let my colleagues speak more specifically to the 
sectors, but I would say, in general, absolutely, it is still 
necessary and the partnership that this has, not bought, I do 
not want to use that term, but the partnership that this has 
engendered has also had a very positive effect across the rest 
of the bilateral relationship, not just in the security sector. 
And you will note that Merida is very much a whole of 
government effort and we have one of the perhaps unintended 
secondary consequences of our 5 years now of Merida is that it 
has engendered on the Mexican side a genuine inter-agency 
process, something that quite frankly, a decade ago didn't 
exist.
    Ambassador Brownfield. Mr. Chairman, if I could offer from 
the INL perspective a set of numbers to indicate that not only 
do I agree with you, but I think we are moving in that 
direction. As we learned in Colombia, when your program is 
successful, part of the price of success is the numbers, the 
funding made available to you to address it goes down.
    May I offer you three sets of numbers, just mine, I don't 
speak for Beth from the USAID side, but the INL funding. In 
Fiscal Year 2012 we received from Congress $248 million for 
Merida. In the 2013 Continuing Resolution we received $199 
million. For Fiscal Year 2014, we have requested $148 million. 
The number is going down precisely as you suggested that it 
should, but from my perspective it is going down in a 
predictable and systematic way that I can then plan against as 
opposed to having a surprise out there waiting for me at the 
end of each fiscal year.
    Ms. Hogan. And from USAID's standpoint, we are 
transitioning out of several sectors in Mexico in order to be 
able to focus and concentrate on Merida and global climate 
change. We are getting out of health. We have already, in fact, 
gotten out of the health sector in Mexico. We are transitioning 
out of higher education and private sector competitiveness. And 
so our funding requests on the development assistance account 
have gone down steadily from $34 million in Fiscal Year 2012 
down to $23 million in Fiscal Year 2013 and we see ourselves 
going to $12 million in Fiscal Year 2014. So we are very much 
in sync with your observation about the Mexican Government 
being able to fill in that space and lead their own development 
path in those sectors.
    Mr. Salmon. You know, it is actually nice to see programs 
in government that actually go down over time. That is a good 
thing. I would like to recognize the gentleman from New York, 
Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Let me just follow that 
for a second because I am a strong supporter of the Merida 
Initiative and I think it is good. But let me just ask this 
question because sometimes what you are trying to do is 
convince your colleagues that it is the right thing to do, et 
cetera.
    So the first question is what metrics does the State 
Department and USAID utilize to show that the program is 
successful, that we could then utilize to tell our colleagues 
this is a successful program and this is how it has been 
evaluated because many say oh, you just spend money, what good 
is it? You just throw money at it.
    So can you tell us what the metrics are?
    Ms. Hogan. I would be happy to begin that discussion with 
you because that is so very important. That is such a very 
important question to be able to track progress as it takes 
place.
    I would say that we are very, very focused on monitoring an 
evaluation of our programs in Mexico as we are globally. And 
just to give you a couple of examples from the justice sector, 
the study that I referenced in my opening comments looks at the 
time in which it takes a prosecutor to resolve a case. In the 
states that are implementing the reform, we have been able to 
see that it is taking them less than half the time to prosecute 
a case than it does in states that have not yet had the reform 
go forward.
    We are also tracking the amount of pre-trial detention and 
we have seen a very sparing use of pre-trial detention in 
states that are doing reforms, you know, that Mexico has had a 
history of having too many people in pre-trial detention. Now 
they are only focusing on those that are at the greatest risk 
of fleeing. So those are the kind of interim indicators that we 
are looking at on the justice side. There are many more and I 
am happy to give you examples of those after my testimony.
    On the youth side, when we are talking about do we know we 
are effective in our programs with at-risk youth, as I 
mentioned again in my testimony, we see the numbers that are 
re-enrolling in school, the numbers that are going on to get 
licit employment. But we also at the end of the day want to be 
able to show that in the communities where we are working we 
will see a reduced level of crime and violence because that is 
the ultimate goal. And so we have done a baseline study in the 
nine communities where we are working, and by February 2014, we 
will be able to say definitively whether or not those programs 
have indeed achieved the goal of reducing crime and violence.
    Mr. Meeks. And might as well stay with this real quick 
because the concerns always are as we drive crime down, 
especially in big cities, in the rural areas and other areas 
where there is not a lot of commerce, et cetera, that is where 
the cartels and other ones seem to emanate and those are 
primarily places where the indigenous live, et cetera. So I was 
wondering, could you tell, as I mentioned in my opening 
statement, what effect the Merida Initiative has in regard to 
helping the plight of minorities in that region or in Mexico, 
how is that working? Mr. Feeley?
    Mr. Feeley. I would be happy to take that, Mr. Meeks, and 
thank you very much for your consistent companionment in 
advising how we deal with in Merida with indigenous and 
marginalized populations.
    First with regards to just one comment to add on to about 
monitoring. On April 16th, President Pena Nieto in Monterrey 
laid out what was the sort of strategic chapeau for what we 
hope will be the emerging security strategy. He laid out six 
lines of action, he called them. And very importantly, one of 
those was monitoring and evaluation. So we take that as a very 
positive sign and we are going to continue to encourage it.
    With regard to Mexico and the protection of indigenous 
people and indigenous populations, it is important to note that 
early in February this year, the new government created the 
Commission for Dialogue with indigenous communities. They hope, 
and it is our encouragement, that the indigenous communities 
will be able to have their human rights protected through 
government attention to their needs, preservation of their 
right to autonomy, and self determination. This forum will be 
very important for continuing that.
    Additionally, since 2003, long before Merida started, the 
Mexican Government has had the National Commission for the 
Development of Indigenous Communities. This is a semi-
autonomous institution created in the Secretariat of Social 
Development. We support very strongly, and you should be aware 
that the Merida dollar that the American people put into Mexico 
very strongly supports through out public affairs section 
working with indigenous communities to empower them in Mexico. 
We have several programs. One of them is with the--it is called 
the Study of U.S. Institute for Scholars, SUSI. We have brought 
up 60 grantees. We continue to sponsor this program. We also 
have something and this is my USAID colleagues can speak in 
greater detail, but it is something called the SEED program 
which provides scholarships to young people and educators.
    When I was in Mexico, I had the privilege of presiding over 
several ceremonies with these people. Probably the most 
effective thing I have ever seen is to send an educator from 
the Tzotzils communities in Chiapas to the United States for a 
community college degree for training in English and then see 
that person return. We have created an alumni network with a 
special focus on indigenous communities in Mexico. So it 
remains a very high priority for us, sir.
    Mr. Meeks. And I hope, begging the chairman's indulgence, I 
just had one, first let me correct myself so I don't get the 
scorn of Mr. Brownfield. I said Ambassador, but I had forgotten 
he is now an Assistant Secretary.
    Ambassador, let me just ask you real quick, could you 
speak, as I said in my opening statement about the importance 
of regional partnerships, particularly when discussing the work 
of Colombia and others in the area, working together to make 
sure that--they talk about the tourniquet effect, that one, we 
are not pushing drugs one way because of networks. I know that 
you have done this. Could you just tell us that very quickly?
    Ambassador Brownfield. Sure. Congressman, you may call me 
Ambassador whenever you wish. I promise not to be offended.
    You know where I am on this because you and I have had this 
conversation a number of times before and that is we must 
address the drug issue and the transnational organized crime in 
a regional and hemispheric way, otherwise, as we have been 
saying for the last 30 years, we squeeze the balloon in one 
place and it is just going to expand in some other place.
    How are we doing it? We have this, in essence, a four-part 
strategy that involves Colombia in the south, heavily focused 
on, originally Plan Colombia and then the Strategic Development 
Initiative; Mexico at the northern end through the Merida 
Initiative; Central America in the middle through CARSI; and 
eventually, ladies and gentlemen, we are going to have to pay 
greater attention to the Caribbean because the logic is as we 
begin to bite and take hold in Central America that Caribbean 
is going to become an issue.
    We have some good news here. Colombia clearly is by 
everybody's account a success story. Mexico, Bill Brownfield 
would argue that we have reached the turning point and we are, 
in fact, seeing now on the ground real-life results of the 
joint effort under the Merida Initiative. Central America we 
are now ramping up. The logic that I saw in Colombia for 3 
years and for a number of years before is that that will begin 
to bite. We have a partner that we have to make greater use of, 
although I acknowledge that they have been enormously helpful 
so far. That is the Government of Colombia which has received 
over $8 billion of funding provided by this Congress since the 
year 2000 and are now in a position to export much of that 
capability. They are doing more police training in Central 
America than we are. They are doing as much monitoring and 
surveillance of drug trafficking, aircraft and boats in the 
Caribbean as we are. We are getting, if you will, Dr. Meeks, a 
return on our investment of the last 10 years.
    Mr. Salmon. Thank you very much. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member for this excellent hearing and thank you to our 
panelists as well.
    Although other regions often dominate the headlines, Latin 
America remains central to our country's security and our own 
prosperity. Mexico is a vital ally in this region. It is 
instrumental to the economic and security outlook of our 
country. And given the strong ties and the interests that bind 
our two nations together, it is important to reexamine the 
Merida Initiative to ensure that it is living up to its promise 
of bringing a greater measure of human rights and the rule of 
law in Mexico as Mexico struggles to address these challenges.
    According to reports, the new Mexican Government has called 
for an end to direct access by U.S. law enforcement officials 
with their Mexican counterparts on security matters. I am 
concerned that this shift by Pena Nieto could impact our 
national security. It could hinder mutual security operations 
regarding narcotrafficking, regarding terrorism. And in 
addition, I am concerned that Mexico is not doing enough to 
protect its southern border. Just like the Colombians are 
training law enforcement and military personnel in the region, 
Mexican authorities should be doing the same. And with that in 
mind, we have got to reexamine our own approach to the violent 
crisis in Central America.
    Last year, joint operations with our allies in Central 
America were crucial in disrupting elicit networks, eliminating 
drug smuggling cells. I am concerned about the growing 
destabilizing threat of violence throughout Central America. 
However, these programs have been frozen for more than a year 
due to a hold from the Senate side. This undermines our 
national security. It lets our friends hanging out there to 
dry.
    So Mr. Feeley, can you give us a status update on the hold 
and I will ask you to respond when I finish. Also, what is the 
strategy of the administration regarding this money, given the 
fact that the reprogramming deadline for Honduras funds is in 
the beginning of June in just a few days?
    And Ambassador Brownfield, you said it was okay to call you 
that, I would like to turn our attention to Bolivia for a 
moment. As we know, in 2008, Bolivia expelled our U.S. 
Ambassador, expelled the DEA. And in 2011, I urged Secretary 
Clinton to oppose the framework agreement between the U.S. and 
Bolivia, citing that Morales does not want to be a partner of 
the U.S. He undermines our interest in the region. And just 
this month, Morales violated the constitution again by seeking 
a third term, expelling USAID officials from Bolivia. However, 
despite all of these expulsions, the State Department continues 
to fund counternarcotics operations in Bolivia. The request for 
Bolivia was $15 million in Fiscal Year 2011; Fiscal Year 2012, 
$7.5 million; and the administration's request for Fiscal Year 
2014 is $5 million. When will the administration realize that 
our tax dollars can be better spent elsewhere? And is there a 
plan to change our current footprint?
    And we will begin with you, Ambassador Brownfield.
    Ambassador Brownfield. Sure, Congresswoman. In fact, I will 
address the Bolivia question and then turn all of the others 
over to John.
    I will not talk to the larger issue. I will talk to the 
specific issue that you have asked and that is what is our 
plans in terms of the future of INL operations and programs in 
Bolivia. And you are correct. I have reached the same 
conclusion that you have. I will tell you that I am proud of 
what the INL section called the NAS down there has accomplished 
in Bolivia over the last 30 years. I think they have delivered 
great value for the American people and for that matter for the 
Bolivian people. That said the time has come for us to go.
    Ms. Ros-Lehtinen. Amen.
    Ambassador Brownfield. It is my intention to close down our 
section in a reasonable and orderly fashion and I would be 
stunned were you to see a request for Fiscal Year 2015 for 
additional funding to support INL activities in Bolivia.
    Ms. Ros-Lehtinen. Thank you so much. We will have you end 
right there. Amen and hallelujah.
    Mr. Feeley, we just have a few seconds, but the strategy 
about Honduras and the hold on the Senate site for all the 
region funds.
    Mr. Feeley. Thank you, Congresswoman. You are absolutely 
right. We have had looked to Honduras as one of perhaps the 
places with most concern where institutions are weak, where we 
have very willing partners, but quite frankly capacity that 
needs to be bolstered.
    You are correct that there is a hold in the other chamber 
of the U.S. Congress. We have worked with the staff members to 
explain what we have done in terms of improving the human 
rights performance of Honduran military and police. What we 
have done with our own DEA and our own trainers in terms of 
developing SOPs, standard operating procedures, to be able to 
provide support to the Honduran police. We have also walked 
through a significant amount of internal review, based on what 
happened during Operation Anvil, earlier. And we have got not 
just a lot of lessons observed, but quite frankly a lot of 
lessons learned. We have taken that process very seriously. We 
remain engaged. It is a high priority for us to be able to 
continue to support the government in Honduras because it is 
one of the most critical places.
    Ms. Ros-Lehtinen. Thank you very much to both of you. Thank 
you. Thank you, Mr. Chairman.
    Mr. Salmon. Thank you. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. You know, last week, 
the OAS released a report on drug policy in the Americas which 
proposed the notion of legalizing production, sale and use of 
marijuana, and urged stability amongst the hemispheric nations 
to deal with the drug problem. It seems to me that it is 
counter to what we are trying to do. I am not shocked at the 
OAS to come up with something like that.
    But can you just talk a little bit about this, both of you?
    Mr. Feeley. Certainly. Let me start out. I will turn over 
the specific details of the report to Bill. But let me just say 
that the United States Government, as you well know, advocates 
a holistic approach to drug policy. The report that came out 
last week was commissioned by the leaders in Cartagena last 
year in a discussion that President Obama had participated in. 
They put it into the CCAD and what they need--CCAD being the 
commission to study drugs in the OAS.
    We believe that we need a baseline. We recognize that our 
policy, our holistic policy that looks at the drug problem as a 
health problem, not just as a criminal justice problem, but 
also undeniably as a criminal justice problem, one that may 
have--we have dedicated tremendous amounts of money here, 
almost $10.7 billion is the request this year for greater 
prevention, greater education, alternate routes to be able to 
deal with drug problems here in the United States. And the 
request for this report we welcomed, frankly. We are looking at 
the report and I would note that the report does not make a 
recommendation. It simply lays out several scenarios that could 
occur if countries were to follow certain routes. With that, I 
will let Bill go a little bit deeper.
    Ambassador Brownfield. Let us not go into detail on the 
drug study, Congressman. It is a very long document. It is over 
200 pages in length. My simple summary would be the first part 
of it, the so-called analytical part was not bad, 
professionally done. The second part, the so-called scenarios, 
what might happen if the following things happened was--I found 
less satisfactory. At the end of the day, the report was not 
actually the resounding call for legalization that the media 
has suggested. And I must admit, I went on line and I entered 
in OAS Drug Study and the first 15 screens of what I got all 
had the title OAS calls for legalization of marijuana, which 
actually was not what the drug study said, but you would have 
to get to the sixteenth screen before you would realize that 
had you gone on line to read it. So you don't have to now. I 
have saved you a vast amount of searching.
    We have gone at this and we have made three or four basic 
fundamental points. One, all governments of all countries of 
this hemisphere have signed on to the three U.N. International 
Drug Conventions. We all must abide by those because we have 
ratified them. Second, legalization, the so-called legalization 
issue, is a matter of national policy. One international body 
is not going to dictate legalization, certainly not to the 
United States of America and I doubt to any other nation in the 
world. Third, as John just mentioned, the approach to drugs has 
to be comprehensive and holistic. We have to address all the 
issues. You don't just get to pick one and say if we solve that 
we have actually solved the problem. We have tried that in the 
past. It does not work. And fourth and finally, the United 
States Government through ONDCP, the Office of National Drug 
Control Policy, put out a new national drug strategy about 6 
weeks ago. It is actually a good strategy. It is different. I 
recognize that you all take a look at it when you have a moment 
because it does attempt to address many of the issues that the 
OAS Drug Study identified, public health as part of the issue, 
looking at alternatives to the criminal justice system, 
bringing down demand. These are good ideas. We don't disagree 
with them and these are the things we wish we could have a 
discussion about in the OAS context as opposed to a somewhat 
simplistic argument based upon a false premise.
    Mr. Sires. Moving on to the Merida and our efforts and I 
know that some people think that it hasn't reached the 
Caribbean yet. I would say, I would disagree with you. I think 
that the real drug movement now comes from the Caribbean. I 
think they have moved on. I think a lot of the drugs that come 
into this country and in Europe goes through the Caribbean. I 
was just wondering if you could talk a little bit about that 
because as we make this effort with Mexico and the rest of the 
countries, you know, I think the balloon has popped already in 
the Caribbean.
    Ambassador Brownfield. Congressman Sires, I would never 
disagree with you. Of course, I acknowledge and agree that the 
Caribbean is a current problem and more to the point a growing 
problem in terms of drug movement through the region. That, in 
fact, is my operating assumption. We might differ as to 
precisely how much is moving through it right now. We do not 
differ on the fact that one, it is growing, more is moving 
today than a year ago. Second, many of the Caribbean states are 
vulnerable to penetration by large, multi-billion dollar 
criminal enterprise. And third, we do--we, the United States of 
America do not have the resources and assets in the region that 
we had back in the 1980s and the 1990s, the last time that the 
Caribbean was overwhelmingly the preferred point of entry for 
illicit product into the United States of America. And my 
argument is we had better think about this today when we have 
some flexibility in terms of how to prepare for this situation 
than waiting for 2 years when we will be confronting a crisis. 
I think you and I agree on that and my own guess is eventually 
we owe you a clearer vision as to what our thinking is to 
strengthen the ability and capabilities of the Caribbean states 
to be able to resist, combat, and eventually defeat this effort 
in the years ahead.
    Mr. Sires. Thank you very much.
    Mr. Salmon. Thank you. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
calling this very important hearing. Let me just ask two 
questions first of Mr. Feeley. On Monday, I chaired a hearing. 
It was the third of a series on Jacob Ostreicher. On June 4th 
it will be 1 year, 2 years I should say, that this man has been 
held against his will for 18 months in the infamous Palmasola 
Prison and I visited him there. It is a horrific gulag place 
run by the inmates. Sean Penn made a very interesting 
recommendation, and the feedback, or the backlash in Bolivia 
and the media by the leadership there is very telling and that 
is to poll support for the Dakar Rally and to ask the sponsors 
to reroute the Dakar Rally so that it does not include Bolivia. 
One, it would also mean that people who are part of it run the 
risk of being incarcerated themselves because businessmen and 
women need to be put on high alert that it is not safe to do 
business in Bolivia. So will the administration support?
    Secondly, in January, I and three other Members of Congress 
including Mr. Pierluisi-Pedro from Puerto Rico, wrote a letter 
to President Obama, then Secretary of State Clinton, Assistant 
Secretary of State Jacobson, and the U.S. Ambassador to Mexico, 
regarding the extremely troubling case of Dr. Manuel Placer. 
Dr. Placer is a U.S. citizen from Puerto Rico. He has been 
imprisoned in Mexico for nearly a year. It is our understanding 
that upon arriving at the airport in Mexico City in June 2012, 
Dr. Placer was arrested and imprisoned by Mexican authorities. 
He was charged under Mexican law with theft, a crime Dr. Placer 
alleged to have committed during a prior visit to Mexico in 
January 2011. This seems to be nothing more than a commercial 
dispute and yet he is being treated like a criminal. We 
understand that the presiding judge in the case declined to 
admit into evidence documentation that Dr. Placer was not in 
Mexico at the time of the alleged crime. We further understand 
that a Federal judge asked to review the case found significant 
problems with the manner in which the presiding judge handled 
the matter and then remarkably he sent the case right back to 
the same judge.
    In our letter, my colleagues and I strongly urged U.S. 
Government through the Department of State to be proactive in 
ensuring that his due process and human rights are protected 
consistent with the International Covenant on Civil and 
Political Rights and all other relevant international and 
domestic legal obligations. We received a response from State 
in March. To describe it as perfunctory would be charitable. I 
also note that in February, Congressman Pierluisi and I met 
with Eduardo Medina-Mora, the Mexican Ambassador to the U.S., 
to express our grave concerns. The Ambassador, former AG as you 
know, did not know of the case, but he pledged to look into. 
Months later, nothing has changed.
    So my question to you, are you aware of the cases, of that 
case? What is the U.S. Government doing to address the serious 
concerns that we have raised? Clearly, more needs to be done. 
The situation is unacceptable. We have a U.S. citizen 
languishing in a Mexican prison on charges that are commercial 
in nature and he has evidently been denied the right to present 
evidence that shows him to be innocent. He wasn't there. I met 
at length with his attorney. Met with his family. He wasn't 
there. Now if that is not true, they are lying. But I don't 
think they are. The evidence seems overwhelming. Can you pledge 
to me and my colleagues that you will look into this matter and 
brief us, but hopefully take some action?
    And finally, to Ms. Hogan, in your testimony you talked 
about training 150 journalists in human rights defenders. My 
question to you is does that also include your definition of 
human rights defenders, does it include abortion rights 
advocates?
    Mr. Feeley. Mr. Smith, I will go ahead and begin. Thank you 
very much. First of all, in general, let me thank you very much 
for your very strong advocacy for American citizens detained 
overseas. You know better than anybody the case of Jacob 
Ostreicher, and the case of Manuel Placer. You also know that 
we face these situations all over the world and that the 
Department of State has as its absolute highest priority the 
protection of American citizens while they are overseas. We 
have in the case of Mr. Ostreicher, as you know, he was 
released on bail, partial house arrest last year. He is still 
there. Mr. Mehmet with whom you have met on multiple occasions 
and previously with John Kramer, continue to meet with him. We 
will remain in steady contact. Roberta Jacobson, the Assistant 
Secretary, is in regular contact with Miriam. We raise this 
repeatedly. We will continue to do so.
    We watched with great interest the hearing that you held 
the other day and saw what Sean Penn had to say. I will tell 
you that we are looking at that. It is under study. I don't 
have an answer for you, but we do owe you an answer on that and 
I wanted to just reassure you that the case of Jacob Ostreicher 
is one that we keep very much--I have a small little checklist 
that has three or four names on it. Gross, Ostreicher, Dr. 
Manuel Placer is always on there. I have a personal connection 
to this. My wife is from Puerto Rico. I know Pedro Pierluisi 
for many years before. I have been in touch with him. I have 
been in touch with Gabriel Guerra-Mondragon. You describe very 
accurately what I understand to be the facts of the case. Keep 
in mind that the American Government and our consular officials 
are not overseas able to take a position on merits of the case. 
However, ensuring that judicial transparency and a level 
playing field is granted to American citizens who are 
incarcerated overseas is our highest priority.
    Manuel has been visited on a number of occasions by our 
people. We stay in touch. We have followed the case being 
remanded back. I can assure you that Ambassador Wayne is aware 
of this case. Our Consul General, Susan Abeyta, in Guadelajara 
is aware of this case. And we will stay in very close touch 
with both Congressman Pierluisi's office and with anybody who 
is advocating on his behalf.
    And let me just once again thank you. Mexico is the home to 
more American citizen prisoners overseas than any other 
country. When I was in Mexico on two occasions, I spent a good 
bit of my time working these types of cases. You mentioned 
somebody who will be a key player and I believe and I pledge to 
you that I will raise this with Ambassador Medina Mora. I'll be 
meeting with him tomorrow. We do a regularly-scheduled 
breakfast to stay in touch. He absolutely is aware of the case 
because you raised it to him and we will raise it with him. 
Thank you.
    Mr. Smith. Is there time for Ms. Hogan? Can Ms. Hogan 
answer that question, Mr. Chairman?
    Mr. Salmon. Absolutely.
    Mr. Smith. Thank you, Mr. Chairman.
    Ms. Hogan. Thank you, Mr. Smith. Our human rights 
protection programs are aimed at those who are at most serious 
risk of harm based on their exposure of human rights violations 
that are occurring in Mexico. So in that group we count 
journalists, certainly, but also bloggers, human rights leaders 
who are exposing very serious issues that could come back to 
haunt them, if you will. Abortion advocates are not part of 
that group.
    Mr. Smith. I appreciate that clarification. I yield back. 
Thank you, Mr. Chairman.
    Mr. Salmon. Thank you, Mr. Smith. Before I recognize the 
next distinguished congressman, I would like to just recognize 
that in our audience today we have the police director, General 
Jose Roberto Leon Riano from Colombia. And I just want to say 
job well done, job well done. [Applause.]
    Proud to work with you. The Chair recognizes the gentleman 
from America Somoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman and Ranking 
Member again for this very substantive and important hearing 
concerning our bilateral relationship with the country of 
Mexico. I hope I won't be redundant and being repetitious. Some 
of the most excellent questions and concerns that have already 
been expressed by my colleagues, but I will try in somewhat of 
a hopeful, some fashion, and try to see if you could--members 
of the panel will be helpful to me.
    We currently have a 2,000 mile border relationship with 
Mexico and with a trade relationship in excess of $460 billion 
trade. And in the process, we have taken the Merida Initiative 
having four basic philosophical goals and objectives in terms 
of how we can interact and work closely with the Government of 
Mexico as we have done for the last 4, 5 years.
    I am just curious. I think we have the total population in 
Mexico now is about 110 million. Am I correct on that? I had 
mentioned earlier about one of the ironies and it seems that 
people hardly hear the fact that Mexico's founding father, the 
Abraham Lincoln and George Washington, was an indigenous Indian 
by the name of Benito Juarez from one of the tribes of the 
Yucatan area. As an orphan raised by monks and despite all the 
height of bigotry and discrimination that was given against 
indigenous Indians at that time, Benito Juarez rose above that 
and eventually became the leader of Mexico and it was through 
his leadership that caused the Cinco de Mayo celebrations that 
we often think about and the fact that this is how Mexico got 
rid of French colonialism and it was through the leadership of 
Benito Juarez.
    I say this because I am just curious, out of the population 
of 110 million, how many are indigenous Indians? Do we have 
statistical data on that, Mr. Feeley?
    Mr. Feeley. Sir, I am sure we do. I will confess I will 
have to get back to you be specific. What I will tell you is 
that the vast majority of the population of the 110-112 million 
Mexicans is Mestizo. The indigenous populations are primarily 
concentrated in the two southern states, Chiapas and Oaxaca. As 
you rightly point out, it is an enormously rich tradition, one 
that Mexicans are very proud of.
    I do have to get back to you. I would think that it is 
relatively small, again, because the nature of Mexico and its 
development in the 20th century and even prior has been of what 
they say in Spanish is Mestizaje, the mixing of indigenous with 
peninsulares, the original folks who came from Europe.
    One thing I will just add is that Mexico, my friend, Arturo 
Sarukhan, the former Mexican Ambassador here used to say, if 
soft power really mattered, Mexico would be a super power. The 
richness of the indigenous culture in Mexico simply cannot be 
overstated. And again, as I mentioned earlier with Mr. Meeks' 
question, one of the pillars of our public diplomacy 
programming is to reach out to those indigenous communities and 
give them a platform for not just coming to the United States, 
but also for showing and preserving the diversity of that 
culture.
    Mr. Faleomavaega. I note with interest you have mentioned 
that President Pena Nieto has set up this commission in 
February to address the needs and the issues affecting the 
rights of indigenous peoples. Was this something that started 
with President Pena Nieto as if this issue or this problem with 
indigenous Indians just seemed like it fell through the cracks 
for the last 100 years in my humble opinion. Am I correct on 
this? Or correct me if I am wrong.
    Mr. Feeley. No, sir. I think what you will see is an 
evolution and perhaps a heightening of focus. Keep in mind that 
there has been in Mexico for quite some time a National 
Commission for the Development of the Indigenous Communities. 
There have been, as you know, as far back in the Zedillo 
administration and the Salinas administration in the early 
'90s, there were serious problems with the indigenous in terms 
of their rights not being respected, land rights not being 
respected. Mexico has worked through a difficult time, much in 
the way the United States worked through its civil rights 
issues.
    Mr. Faleomavaega. Well, unfortunately, I have about 100 
more questions I wanted to ask, Mr. Chairman, but I know my 
time is running out. I will submit a series of questions in 
writing.
    Mr. Salmon. I was just going to suggest that. If you have 
any questions in writing and we are going to have a Part 2 of 
this hearing, too, later at a different date, but anything you 
would like to submit.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I thank the 
members of the panel.
    Mr. Salmon. That concludes our opportunity to hear your 
testimony and our questions. Thank you so much. We are just 
really honored to be able to work with you and count on us as 
allies and it is time for us to change the guard, so thank you 
very much.
    [Recess.]
    Mr. Salmon. Okay, we are going to proceed with the second 
panel. And I am really thrilled, we have Clare Seelke. Am I 
saying that right? Seelke. Sorry.
    Clare Seelke is a specialist in Latin America affairs at 
the Congressional Research Service, CRS is a nonpartisan 
research agency that serves the members and committees of 
Congress and their staffs that is located in the Library of 
Congress. Ms. Seelke came to CRS in 2003 as a presidential 
management fellow. As part of her fellowship, she completed 
rotations with the State Department in the Dominican Republic 
and with the U.S. Agency for International Involvement in 
Washington, DC. She currently focuses on Mexico, Bolivia, and 
Central America with a special focus on security issues. Ms. 
Seelke holds a master's of Public Affairs and a Master of Arts 
in Latin American Studies from the University of Texas at 
Austin. Prior to graduate school, she obtained her 
undergraduate degree from University of Notre Dame and served 
as a volunteer in Guayaquil, Ecuador. By the way, my daughter 
just completed a mission for our church in Guayaquil, Ecuador. 
So that is kind of neat.
    Next, we have Mr. Dudley and let me see. I have got your 
introduction. Steven Dudley, director and head of Research 
Mexico, Central America, and Caribbean, InSight Crime. Dudley 
is a senior fellow at American University Center for Latin 
American and Latino Studies in Washington, DC, and a visiting 
fellow at the Woodrow Wilson Center for International Scholars. 
He is the former bureau chief of the Miami Herald in the Andean 
Region and author of ``Walking Ghosts: Murder and Guerrilla 
Politics in Colombia.'' Dudley has also reported from Haiti, 
Brazil, Nicaragua, Cuba, and Miami for NPR and the Washington 
Post, among others. He has a B.A. in Latin American history 
from Cornell University and an M.A. in Latin American studies 
from the University of Texas at Austin. He was awarded the 
Knight Fellowship at Stanford University in 2007 and is a 
member of the International Consortium of Investigative 
Journalists.
    And then finally, Francisco Gonzalez. Dr. Gonzalez is 
associate professor of Latin America studies at the Johns 
Hopkins University, Paul H. Nitze School of Advanced 
International Studies. Before joining SAIS in Washington, DC, 
Professor Gonzalez taught at the SAIS Bologna Center in Italy 
and he was a junior faculty member of the University of 
Oxford's Department of Politics and International Relations in 
Great Britain. Professor Gonzalez was the recipient of the 
British Academy of Post-Doctoral Fellowship which he served at 
Nuffield College, Oxford. And prior to that he was a lecturer 
of politics at St. John's, Oxford. His research interests 
include the politics of Mexico's democratization process, 
political impacts of financial and economic crisis in Latin 
America and more recently Europe, transitions to democracy and 
authoritarian rule and the growing influence of the Hispanic 
community and the politics of the United States. Professor 
Gonzalez is author of two books, both published by Johns 
Hopkins University Press, first, ``Dual Transitions from 
Authoritarian Rule: Institutionalized Regimes in Chile and 
Mexico, 1970-2000,'' was named Outstanding Academic Title of 
2008 by Choice, the magazine for academic libraries. Second, in 
the spring of 2012, he published ``Creative Destruction? 
Economic Crises and Democracy in Latin America.'' He is a 
regular participant in commentary shows on CNN in Espanol, 
Voice of America, the Diane Rehm Show, and Al Jazeera 
International. Professor Gonzalez received the Excellence in 
Teaching Award at SAIS in 2006 and again in 2012. He is one of 
the few SAIS faculty members to have received this honor twice. 
Dr. Gonzalez earned his master's MPhil in 1997, doctoral DPhil 
2002, degrees in politics from the University of Oxford and his 
BA in Politics and Public Administration from El Colegio de 
Mexico, 1995.
    Ms. Seelke.

STATEMENT OF MS. CLARE R. SEELKE, SPECIALIST IN LATIN AMERICAN 
            AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Ms. Seelke. Chairman Salmon, Ranking Member Sires, thank 
you for the opportunity to testify today on behalf of the 
Congressional Research Service. As you requested, my testimony 
focuses on the rationale behind the Merida Initiative and how 
the Initiative has evolved over time.
    By the mid-2000s violence perpetrated by transnational 
criminal organizations had begun to threaten citizen security 
in Mexico. The Merida Initiative was conceived in 2007 in 
response to then President Calderon's unprecedented request for 
increased U.S. support in helping Mexico combat drug 
trafficking and organized crime. Prior to that time,
    U.S.-Mexican drug cooperation had been plagued by mutual 
mistrust. As originally designed, Merida consisted mainly of 
U.S. training and equipment for Mexican security forces engaged 
in anti-drug efforts. Congress has appropriated $1.9 billion 
for Merida through Fiscal Year 2012 while the Mexican 
Government invested more than $46 billion in related efforts 
from 2008 to 2012.
    The United States also provided extensive intelligence 
sharing and logistical support for Mexican anti-crime 
operations. To complement bilateral efforts in Mexico, the U.S. 
also pledged to address drug demand, weapons trafficking, and 
bulk cash smuggling.
    Acknowledging that Mexico could not effectively confront 
organized crime with tactical victories alone in 2010, the 
Merida Initiative evolved to focus on the Four Pillars 
previously discussed: Disrupting organized crime groups, 
strengthening the rule of law and human rights protections, 
building a 21st century border with emphasis on the Mexican 
side; fostering strong and resilient communities through 
prevention programs; and services for at-risk youth. From 
Fiscal Year 2012 forward, the largest amount of funds requested 
has fallen under Pillar II for criminal justice sector reform. 
There has also been increasing support for justice sector 
reform and prevention programs at the state and local level.
    Weak government institutions and underlying societal 
problems have allowed the drug trade to flourish in Mexico and 
many Mexican analysts welcomed the Merida Initiative shift in 
focus. Some continued to argue, however, that border 
modernization and community-building programs have been 
underfunded. In addition, most Mexicans continue to have 
reservations about the anti-organized crime efforts under 
Pillar I because of the perception that they contributed to 
record levels of violent crime.
    On balance, Merida dramatically increased bilateral 
security cooperation and efforts under Pillar I helped the 
Calderon government arrest or kill record numbers of criminal 
leaders. Many of those leaders have been extradited to the 
United States to stand trial, but few, if any, have been 
successfully prosecuted in Mexico.
    At the same time, Mexico also experienced record levels of 
organized crime-related violence partially in response to 
government efforts as criminal organizations split, fought 
against each other and proliferated. As the violence increased, 
so too, did popular opposition to the government security 
strategy. On December 1st, Enrique Pena Nieto of the PRI took 
office pledging to enact bold structural reforms to boost 
Mexico's economy and to broaden relations with the United 
States beyond security issues. The over-arching aim of his 
security strategy is to reduce violent crime in Mexico, a goal 
that President Obama has pledged to support.
    The Merida Initiative is now being adapted to complement 
President Pena Nieto's goal of violence reduction. Although 
that adaptation may be somewhat slow and difficult it could be 
necessary to ensure that U.S. and Mexican priorities complement 
one another moving forward.
    Six months after President Pena Nieto took office, details 
of this government security strategy, particularly how it plans 
to combat crime without exacerbating violence have not been 
fleshed out. The Pena Nieto government has asked for increased 
U.S. support for judicial reform and prevention efforts with 
the United States has already been provided through Pillars II 
and IV of Merida. Pillar III, building a 21st century border, 
could also dovetail well with his goal of increasing U.S.-
Mexican trade. Some are concerned, however, that the Pena Nieto 
government has limited direct U.S. involvement in some 
intelligence and law enforcement operations under Pillar I.
    So what are the implications for U.S. policy? As President 
Pena Nieto influenced his security strategy, Congress may wish 
to examine how the government's priorities align with U.S. 
interests. Congressional approval would be needed should the 
State Department seek to reprogram some of the $500 million in 
funding already in the pipeline for Merida or shift additional 
new funding toward Mexico's new priorities. Should conflicts 
occur between Mexican and U.S. priorities, Congress may 
consider how those conflicts should be resolved.
    Mr. Chairman, thank you again for the opportunity to 
testify before you today, and I look forward to your questions.
    [The prepared statement of Ms. Seelke follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Dudley.

    STATEMENT OF MR. STEVEN DUDLEY, DIRECTOR, INSIGHT CRIME

    Mr. Dudley. Good morning.
    Mr. Chairman, thank you. Ranking Member, members of the 
subcommittee, I am grateful for the opportunity to appear 
before you on behalf of InSight Crime and the Woodrow Wilson 
Center to discuss security issues in Mexico and United States' 
efforts to address these issues through the Merida Initiative.
    This testimony, I should note is an abbreviated version of 
the full testimony which I submitted for the congressional 
record.
    Since its beginning in 2008, the Merida Initiative has by a 
series of important programs outlined here by Clare, ranging 
from prevention strategies to technical assistance and 
equipment, opened the way for unprecedented cooperation between 
the two nations. The cooperation helped Mexican authorities 
capture 25 of 37 designated kingpins, severely debilitating 
several of the large criminal structures. The Calderon 
government also initiated important judicial sector reforms and 
started to restructure the country's security forces in order 
to deal more effectively with criminal organizations.
    At the same time, Mexico has lived through an unprecedented 
spike in violence. Homicide rates tripled during President 
Calderon's time in office. Targets included politicians, 
police, military personnel, and civilians. Response by military 
personnel, at least in some cases documented by human rights 
organizations was excessive and may have included extra 
judicial executions of suspects or civilians.
    Meanwhile, criminal gangs have fragmented. They have 
diversified their criminal portfolios and draw much of their 
income from local revenue sources such as drug peddling, an 
increasingly large local drug market, extortion, kidnapping, 
theft, and other activities. The most formidable of these 
organizations is known as the Zetas, a military-minded group 
that is focused on controlling physical territory and has a 
wide portfolio of activities. It has also grown exponentially 
during the last few years. Because its revenues come from local 
criminal activities that can be practiced anyway and by 
virtually anyone, the Zetas have created the ultimate 
democratic model of organized crime. It is a model that can be 
easily replicated across Mexico and is therefore inherently 
vulnerable to suffering internal splits itself.
    Perhaps the most enigmatic example of these challenges that 
the Mexican Government faces and during the last 5 years of its 
time is Ciudad Juarez. Between 2007 and 2011, this city went 
from about 300 homicides per year to over 3,500 per year. The 
astounding spike in violence during that period has been 
matched only by the surprisingly precipitous drop in homicides 
which is back down about one per day. There are many ways to 
explain this drop in violence. The most cited explanation is 
that in the war between the two largest criminal groups in the 
area, one became the winner, the Sinaloa Cartel. In this 
narrative, this criminal group is maintaining order in the 
underworld, something that seems like an oxymoron and hardly 
sustainable.
    But in Juarez, the government and Juarez citizens also took 
action. The government initiated a program aptly named Todos 
Somos Juarez. We are all Juarez. Multi-million dollar 
educational and violence prevention strategy of the type the 
U.S. Government already assists under Pillar IV of the Merida 
Initiative. Citizens, with the help of the Federal Government, 
have created roundtables that regularly interact with 
authorities demanding accountability and results and fostering 
greater trust between them and their city officials. These 
officials include the city's police chief, Julian Leyzaola, who 
many give credit to for the drop in crime and violence. The 
cornerstone of his policy, however, is to arrest anyone who 
they see as a threat. Some say these mass incarcerations are a 
systematic violation of human rights and may lay the groundwork 
for another round of violence.
    Finally, it is worth noting increased cooperation between 
the U.S. and Mexican law enforcement that has also played an 
important role in the battle for Juarez. U.S. and Mexican 
investigators from both sides of the border told me that they 
were cooperating on a more regular basis since Merida began. 
Agents on both sides said this cooperation has led to real 
results including arrests on the Mexican and U.S. sides of the 
border.
    For his part, President Enrique Pena Nieto has said he will 
focus his efforts on reducing violence. But since taking office 
in December, the President has only given a broad outline of 
how he will achieve this goal. In some respects, it feels the 
same as the Calderon strategy. Pena Nieto has, for the most 
part, left Army troops and Federal police in many of the same 
hot spots where Calderon used them. He has said he will 
continue reforms, although both police and judicial reform seem 
to be stalling already under his administration.
    There are some more subtle shifts in policy. Pena Nieto has 
reduced the role of the marines by some 40 percent. The army's 
role also appears to be moving more toward a less confrontation 
strategy although evidence of this shift is more anecdotal than 
quantitative.
    In another subtle shift under Pena Nieto, the Attorney 
General's Office has reduced the number of drug prosecutions to 
a 15-year low. In general, you might say while Calderon tried 
to bully his way toward a more manageable security situation, 
Pena Nieto appears more interested in taking a selective 
approach and possibly reducing the pressure on criminal groups 
involved in drug trafficking as a way to lower the temperature 
of this confrontation. Thank you for your time. I look forward 
to your questions.
    [The prepared statement of Mr. Dudley follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    Dr. Gonzalez.

STATEMENT OF FRANCISCO E. GONZALEZ, PH.D., RIORDAN ROETT SENIOR 
   ASSOCIATE PROFESSOR, LATIN AMERICAN STUDIES, JOHN HOPKINS 
      UNIVERSITY SCHOOL OF ADVANCED INTERNATIONAL STUDIES

    Mr. Gonzalez. Thank you, Mr. Chairman, members of the 
committee. Thank you for the invitation to testify today. I ask 
that my whole written testimony be made available to the public 
and I will summarize my presentation into three points and look 
forward to your questions.
    Point one, focused originally on training and the sale of 
military and police equipment to help Mexico pursue the so-
called war on drugs, the Merida Initiative had, in my view, a 
significant and welcomed change of focus in 2010 by emphasizing 
institution building, specifically, helping Mexico to introduce 
the law, the rule of law in the country. Many police records, 
think tanks, policy documents in Washington, DC, and Mexico 
City, make the mistake of saying that the aim is to help Mexico 
strengthen the rule of law. This is incorrect. The reason is 
there has not been a rule of law in Mexico. I wish that the 
thousands and thousands of innocent Mexicans in jail had such a 
good advocate as congressmen here, Congressman Smith, as we 
heard during the previous panel. Alas, they don't.
    Creating the rule of law is by far the most important 
positive medium to long-term contribution that American 
taxpayers' money can bring about in Mexico. One of the reasons 
why the early years of the Merida Initiative ended up 
surrounding by controversy was that by providing means to 
strengthen Mexico's military and police forces and given the 
absence of the rule of law in Mexico, complaints of serious 
abuses started piling up regarding the conduct of Mexico's 
military and police forces against innocent civilians.
    Second point, there has been a worsening general perception 
of U.S. operations in Mexico. A turning point for Mexican 
public opinion about U.S. helping the war on drugs occurred 
after a whistle blower uncovered the so-called Fast and Furious 
Operation carried out by the Bureau of Alcohol, Tobacco, 
Firearms and Explosives between 2006 and 2011 which allowed 
more than 2000 AK-47 weapons to walk into Mexico to try to 
arrest kingpins. This operation unraveled after the tragic 
death due to one of these weapons of a U.S. Border Patrol 
Agent. The Mexican Attorney General has confirmed that some of 
these weapons have been recovered in crime scenes where at last 
150 Mexicans were maimed or lost their lives, but few officials 
have either from the U.S. or Mexico even blinked an eye.
    As of February 2012, more than 1,000 of these weapons 
remained walking around Mexico.
    Another incident that acted as a significant eye opener for 
both Mexican society and the U.S. Government was the ambush of 
a U.S. vehicle with diplomatic plates carrying two CIA agents 
which came under attack by Mexican Federal police forces. In 
addition, President Calderon allowed U.S. unmanned planes to 
operate in Mexican territory without even most of his close 
collaborators knowing about this. For many, Calderon's strategy 
had gone berserk and as a consequence there was a significant 
public opinion backlash against the no strings attached access 
given to U.S. law enforcement, intelligence, and military 
forces.
    Point three, it is my view that it is right that lowering 
the levels of violence, official impunity, and homicides has 
become the Mexican Government's top priority. My own position 
after having heard many family friends, working colleagues, 
acquaintances scattered around my country from Mexico City to 
Morelos to Michoacan to Jalisco to Coahuila to Nuevo Leon, is 
that every day living conditions during the last 6 years have 
deteriorated significantly. Extortion, almost unheard of among 
the backbone of middle class in Mexico, doctors, lawyers, 
economists, engineers, has become endemic in the last few 
years.
    A case that helps to illustrate the climate of intimidation 
that society is under given the collusion between drug trading 
organizations and high-ranking members of local, state, Federal 
Governments, and police and military officers occurred to 
someone my family knows well. The individual in question is a 
prestigious heart surgeon, who is well known for his 
involvement with good causes in his city. A military platoon 
was sent to take over his house without a search warrant. His 
crime, his daughter's mother-in-law was a State Attorney 
General who resigned and threatened to go public about 
systematic corruption and close links between the military 
stationed in the area and the drug trafficking organizations. 
The military ransacked, robbed, destroyed, and defecated in the 
doctor's house. The doctor, an influential individual in the 
city went to see the General in charge of the garrison station 
there. He was told the action had been just a taste of what 
could happen to him and his family if his daughter's mother-in-
law opened her mouth.
    Mexican President Pena Nieto's decision to recentralize law 
enforcement and intelligence functions under the Secreatria de 
Gobernacion is not necessarily bad. The restoration of basic 
oversight functions centrally is a necessary prerequisite to 
reign in significant fragmentation, bordering on anarchy that 
Mexico has experienced during recent years. For the record, I 
am not and have never been a member of any political party. 
Neither have I ever worked for any government or any public 
project. I am proud to be a teacher and my weapons are my 
reasoning and my independent voice. I think the most important 
action that U.S. representatives of taxpaying American citizens 
can take is to deepen their commitment to help Mexico create 
the rule of law. The U.S. tradition of open all trials, 
presumption of innocence, trial by a jury of peers, and the 
basic notion of equality before the law are essential if Mexico 
is to consolidate its democracy and prosperity in the medium to 
long term. Thank you.
    [The prepared statement of Mr. Gonzalez follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    We are going to have to go vote very, very soon. We have a 
series of three votes and that is it for the day and everybody 
kind of heads off to the four winds after that. So I am going 
to abbreviate our questions and as soon as each of us gets a 
chance to ask a question, we will adjourn. But thank you so 
much. There are so many things to talk about and more questions 
to ask and I am sure we will interface with you again more at 
other times.
    But Mr. Dudley, I would like to address one particular 
issue. You noted there has been a major decrease in drug 
prosecutions by the Mexican Attorney General's Office since 
Pena Nieto took office. In your written testimony you said that 
Pena Nieto's administration is more interested in reducing the 
pressure on criminal groups involved in drug trafficking as a 
way to lower the temperature of this confrontation.
    In practical terms, are you suggesting that the new Mexican 
Government may be willing to sacrifice actual results for the 
perception of reduced drug-related crime?
    Mr. Dudley. Thank you for the question. I think that they 
are trying to change what those results look like. I think that 
if they were making the priorities if it were their priority 
list, their priority list may not look the same as the United 
States' priority list. In other words, if the United States' 
priority list of getting the five largest drug kingpins, for 
them, if these are not the five largest motors of violence or 
people who are engendering the type of disruption and violence 
that is occurring and described very well by Dr. Gonzalez, then 
perhaps those would be their priorities.
    So I think it is a shift in priorities. And I don't know 
about the number of prosecutions. What I can say is the number 
of cases opened with regards to a specific type of crime which 
are very closely related to drug trafficking crimes. They call 
them crimes against health literally, but they are mostly drug 
trafficking crimes, so possession, movement, you know, 
purchasing, those sorts of things. And those are down to a 15-
year low. And then simultaneously with the idea and in fact, 
some military personnel have said this in public already that 
there is a notion of perhaps pulling back a little bit, 
lowering the number of road blocks, not going out and having 
sort of massive sweeps any more. Maybe it is a more effective 
way. It is harder to say. Maybe it is more targeted. But you 
can certainly see those subtle shifts in the way in which they 
are approaching this.
    Mr. Salmon. Thank you. Mr. Sires.
    Mr. Sires. Thank you. Thank you for being here today. Dr. 
Gonzalez, you don't seem to think much of this effort to 
centralize the security. Obviously, they ruled for 71 years and 
they were pretty much centralized. So I was just wondering if 
you can just elaborate on that a little bit, why you don't 
think this--why do you think this is going to be effective or 
not effective.
    Mr. Gonzalez. Thank you, Mr. Congressman. I think the jury 
is still out there, as Mr. Dudley said. I think this approach 
is less provocative. An analogy would be it seems like the 
previous administration, President Calderon's administration 
kicked the hornet's nest, there, and everywhere.
    This administration seems to want to target operations and 
as I said before, we reserve our judgment regarding the 
outcomes.
    It is very important that there are fewer windows of 
opportunity where the systematic impunity and corruption that 
takes place in the country continues to happen. An important 
example is the current takeover of the state of Michoacan by a 
general who has taken over the control of municipal, state, and 
Federal law enforcement authorities. During Calderon's period, 
each of these three levels of government were doing their own 
thing. And it is the voice in the street throughout Mexico that 
80-90 percent of municipal police forces are in the paycheck of 
the cartels. Likewise, very high percentages of the state 
police forces. Centralizing it is not necessarily a silver 
bullet to solve the problem. It at least helps to close down 
some of those gates through with impunity and corruption 
operate on a daily basis and allow inexcusable things like the 
one I related to happen.
    Mr. Salmon. Thank you. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. And thanks to the 
panel. I apologize. We had a lot going on today, but this is an 
area of interest to mine. We traveled last year in August down 
to Mexico City and met with the Federal police, the military 
and Mexico City law enforcement. And I understand some of the 
training, but one thing that concerns me is the new President 
seems to have pulled back some of the resources from the 
border. And we know that is where Americans are concerned that 
we are seeing cross-border violence and we are seeing whatever 
the number is today of murdered Mexican citizens, murdered by 
the drug cartel in that border region.
    So Dr. Gonzalez, I would just ask you to comment a little 
bit about the perception of the President pulling his resources 
back to a more central location. Is that a positive thing? And 
it may be. I talked with Under Secretary or Assistant Secretary 
Robert Jacobson recently about this from the U.S. State 
Department's perspective, but I would be curious to hear your 
perspective. Is that a strategy that may have long-term 
positive effects, or do we see some concern of pulling back 
resources from the border area on the Mexican side?
    Mr. Gonzalez. Thank you for your question, Congressman. The 
main aim, at least in the short term, is to be less provocative 
by the current Mexican Government. In particular, there is a 
keen sense that it is very important to restore peace along the 
border given the very significant economic relationship that 
the U.S. and Mexico have close to $1 trillion, $\1/2\ trillion, 
to 2011, 2012, annually, with some of these places like Nuevo 
Laredo, like Tijuana, like Juarez, like Matamoros, being the 
bridges that connect this incredibly vibrant exchange. The 
government has decided to pull back resources to concentrate 
first and foremost in the south, the states of Michocan, 
Guerreo, maybe start going into Sinaloa, further up in the 
Pacific and Sonora, to try to reign in, in particular, a lot of 
the gangs that have established deep social roots within the 
communities. They want to be able to have permanent police and 
military presence on their central control there to try to root 
that out. That is also the route for a lot of the 
methamphetamine comes through.
    My sense and again, there are no results, so the jury is 
out there, my sense is that the earlier tactic of pulling back 
from the border is to be less provocative, to allow for 
restoration of some social sense of peace among society in the 
large cities of the border, given the very significant role 
they play in economic affairs. I don't think they have 
abandoned the border. I don't think this is the strategy that 
will be followed to the next 6 years. I think this is part of a 
strategy and, as I said, currently, the idea is to concentrate 
further down south where, in fact----
    Mr. Duncan. In the essence of time, I think 40,000 people 
have been killed in the border region by the drug cartel. Is 
that because the military or the police forces had provoked the 
Mexican drug cartel? Were there a large number of that 40,000 
that have been killed involved in law enforcement or are these 
random cartels fighting one another? And how does a pullback 
strategy change that situation where the cartels are actually 
fighting each other and will we see fewer deaths because of the 
pulback? I am trying to understand the strategy.
    Mr. Gonzalez. It varies according to cities. Cities like 
Juarez, for example, violence became so fragmented that there 
was no line of command, no police chief of military chief could 
take the phone and call someone on the other side, the leader 
of a cartel and say pull back. Things had become so outsourced, 
almost on a block by block basis that no one could control 
violence. Thankfully, that was not the case or it didn't get to 
that stage in places like Tijuana. It was on the brink. Places 
like Nuevo Laredo are still struggling with that.
    The idea is if you want to create cordon sanitaires and not 
go kick the hornet's nest, many of the dead, around 80-90 
percent, are drug trafficking cartels fighting over 
transportation routes and some officials who have fallen in the 
line of duty. The idea of creating the cordon sanitaires is to 
be less provocative, to bring the levels of violence down.
    Mr. Duncan. So part of the pullback is just to bring the 
forces in, build loyalty with the Mexican Government and do 
away with some of the corruption, kind of gather your forces, 
understand the loyalty factors and then come up with a strategy 
going forward is what I am understanding you saying.
    Mr. Gonzalez. That is my sense, Congressman, which is a 
very significant difference from the previous approach which 
was, as I said, going out here, there, and everywhere by the 
Calderon administration in the sense of a majority of Mexican 
public opinion that created a very negative spillover.
    Mr. Duncan. Thank you so much. I yield back.
    Mr. Salmon. Thank you. I really appreciate this 
distinguished panel. It has been incredibly helpful. I am sorry 
we didn't get to ask more questions. We are going to have to go 
vote now so this subcommittee meeting is now adjourned. Thank 
you.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
